IN THE
SUPREME COURT OF THE UNITED STATES
RANDALL SQOTT OVERTON,
Pro se Petitioner,
No*:
v.
MATT MACAULEY, WARDEN,
. i
Respondent*

PROOF OF SERVICE
I, RANDALL SQOTT OVERTON, Petitioner, in the above-captioned case, declare
under penalty of perjury, pursuant to 28 U.S.C. § 1746, that on OCTOBER 22, 2020,
I served upon Respondent's counsel, Dana Nessel, Michigan Attorney General and Kyra
L. Worthy, Wayne County Prosecuting Attorney, by placing a COPY of the PETITION
FOR A WRIT OF CERTIORARI and MOTION TO PROCEED IN FORMA PAUPERIS, in an envelopes
addressed as follows: Michigan Attorney General; Criminal Appellate Division; P.O.
Box 30217; Lansing, Michigan 48909 and 1441 St. Antoine, Suite 1106; Detroit,
Michgan 48226, with sufficient postage attached thereto and then placing said
envelopes in the hands of correctional staff at the Bellamy Creek Correctional
Facility: 1727 West Bluewater Highway; Ionia, MI 48846, for deposit into the
facility's outgoing mail.
/£>~22^2j3

RANDALL SQOTT OVERTON
Pro se Petitioner/Declarant

Date:

Randall S. Overton #807506
BELLAMY CREEK CORRECTIONAL FACILITY
1727 Mast Bluewater Highway
Ionia, Michigan
48846
Thursday, October 22, 2020
Clerk of the Court
U.S. SUPREME COURT
1 First Street, N.E.
Washington, D.C. 20543
Re: Submission of Petition for a Writ of Certiorari

Dear Clerk:
Please find ENCLOSED PRO SE PETITION FOR WRIT OF CERTIORARI; MOTION TO
PROCEED IN FORMA PAUPERIS; DECLARATION IN SUPPORT OF MOTION TO PROCEED IN FORMA
PAUPERIS; APPENDIX; and PROOF OF SERVICE, for FILING with the Court.
If there are any issues with the ENCLOSED pleadings, PLEASE contact me at the
address listed above.
In closing, I THANK YOU in advance for YOUR time and assistance with this
request.' It is APPRECIATED. Please have a wonderful day!
Sincerely,

Randall S. Overton #807506

encls:

Z' ,
■

Sg

">/

